   ACTIONS NEEDED TO
STRENGTHEN THE FEDERAL
HIGHWAY ADMINISTRATION'S
 NATIONAL REVIEW TEAMS


  Federal Highway Administration

   Report Number: MH-2011-027
   Date Issued: January 6, 2011
           U.S. Department of
                                                                     Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Actions Needed to                                                       Date:    January 6, 2011
           Strengthen the Federal Highway Administration's
           National Review Teams
           Federal Highway Administration
           Report Number MH-2011-027


  From:    Joseph W. Comé                                                                    Reply to
                                                                                             Attn. of:   JA-40
           Assistant Inspector General
              for Highway and Transit Audits


    To:    Federal Highway Administrator

           Under the American Recovery and Reinvestment Act (ARRA) of 2009, 1 the
           Federal Highway Administration (FHWA) received $27.5 billion to invest in state
           and local highway infrastructure projects. FHWA has funded over 12,000 ARRA
           projects. As with other Federal-aid highway programs, FHWA is relying on its
           52 Division Offices 2 to provide oversight of ARRA projects. Additionally,
           FHWA created national review teams (NRT) to independently assess states'
           management of ARRA funds. Through these NRT assessments, FHWA aims to
           identify problems requiring corrective actions as well as national trends and
           potential new risks.

           We initiated this audit to evaluate the NRTs' effectiveness in conducting national
           oversight and mitigating risks posed by the rapid infusion of ARRA dollars.
           Specifically, we (1) assessed FHWA's implementation of the NRTs and examined
           ways to maximize the effectiveness of the NRTs before more ARRA funds were
           expended, (2) assessed FHWA’s efforts to ensure timely and effective actions
           were taken to correct problems identified by NRT reviews, and (3) determined
           whether FHWA had conducted national level analysis of data collected by the
           NRTs.


           1
               Pub. L. No. 111-5 (2009).
           2
               Division Offices are located in every state, Puerto Rico, and the District of Columbia.
                                                                                                                   2


To conduct our work, we reviewed NRT documents; visited five Division Offices
and state departments of transportation (California, Georgia, Illinois, Indiana, and
Kansas) to evaluate the NRT process; observed an NRT review in Texas; verified
the status of corrective actions and assessed the scope of the NRT findings;
obtained and analyzed the data gathered by the NRTs during their reviews; and
interviewed key FHWA officials in Headquarters and the field. We conducted our
work from November 2009 through October 2010 in accordance with generally
accepted government auditing standards for performance audits. Additional
details of our objective, scope, and methodology are in exhibit A.

RESULTS IN BRIEF
Within 3 months of ARRA's passage, FHWA had taken the necessary steps to
implement the NRTs, including hiring core staff and establishing an adequate
budget. Our fieldwork indicates that NRTs are conducting thorough reviews in a
consistent manner—yielding useful data.
FHWA’s Division Offices are working with states to implement corrective actions
that address NRT findings, but based on a review of NRT data as of May 2010, we
identified vulnerabilities that demonstrated the need for increased management
oversight. For example:
• Approximately 12 percent of NRT observations we reviewed at that time were
  not included in summary reports that Division Offices use to identify instances
  where corrective actions are needed.

• A significant number of corrective actions were not properly recorded in
  FHWA's Recovery Act Database System (RADS), 3 including nearly 17 percent
  that had no target action date recorded.

Without comprehensive summary reports and target action dates, FHWA could
not be certain that all corrective actions were taken, or fully assess its ARRA risk
management efforts. In addition, FHWA had not defined the critical role of its
three Directors of Field Services in monitoring corrective action plans and
resolving issues that could impact the prompt and effective implementation of
corrective actions. Although these Directors are well positioned to provide
sustained management attention, our audit showed that they viewed their roles
differently and provided varying levels of oversight.
FHWA had conducted limited analysis of NRT results at the time of our audit to
identify national trends and emergent risks or assess the effectiveness of ARRA


3
    RADS is FHWA's system to collect information from recipients of ARRA grant funds. Data recorded by the NRTs
    in RADS fall into two categories: (1) yes, no, or not applicable responses to NRT checklist items and (2) text or
    memo observations made by team members during the review.
                                                                                                         3


risk response strategies. 4 FHWA's ability to conduct national-level analyses was
limited in part by deficiencies in the way data were captured in RADS. RADS did
not allow NRTs to categorize their findings in real time. In addition, RADS
lacked data fields to clarify “not applicable” responses, which accounted for more
than one-third of responses. Without such data fields, FHWA could not determine
whether the question was not relevant or simply not answered by the NRT,
limiting FHWA's ability to analyze the NRT data. FHWA officials recognize the
need to improve their data analysis capabilities and have rolled out a new version
of RADS with features to facilitate analyses of NRT data.
The increase in the number of active ARRA projects in 2010 challenged the
NRTs’ ability to complete timely reviews. Accordingly, we are making a series of
recommendations intended to enable FHWA to strengthen the NRT approach
during this critical period of ARRA highway construction and allow FHWA to
enhance its national oversight capabilities.

BACKGROUND
ARRA designated over $48 billion for new and existing DOT programs to address
transportation infrastructure needs across the country. More than half of these
funds were designated for highway and bridge projects under FHWA. The rapid
disbursement of billions of dollars substantially increased the risk of fraud, waste,
and abuse. To help Division Offices provide the level of accountability and
transparency called for under ARRA, FHWA established the NRTs. FHWA
expected NRTs to conduct quick reviews to help meet ARRA's tight time frames,
including a requirement that all funds be obligated by September 30, 2010, and
expended by September 30, 2015. NRT reviews assess state processes and
compliance with Federal requirements in six key risk areas: (1) preliminary plans,
specifications, and estimates; (2) contract administration; (3) quality assurance of
construction materials; (4) local public agencies; (5) disadvantaged business
enterprises; and (6) eligibility for payments. NRTs confine each review to one
state and usually target one to three of the key risk areas.

The overall NRT leader reports to the Director of Field Services-West. Each
Division Office Administrator reports to that region's Director of Field Services.
The schedule for NRT reviews are based on risk assessments for each state, but it
is subject to modification based on current conditions. Additionally, the schedule
identifies when and where reviews will occur, what risk areas will be addressed,
and the team composition.



4
    FHWA acknowledged in its ARRA Risk Management Plan the importance of the NRT data in providing internal
    feedback on how well FHWA is managing risks and addressing emergent and changing risks.
                                                                                   4


NRTs conduct reviews using standard guides and enter results directly into RADS.
As a review progresses, the NRT discusses findings with Division Office and state
transportation staff. To close a review, the NRT provides a report to the Division
Office that summarizes the results, provides a rating for each review area, and lists
observations and recommendations. The summary report forms the basis of a
corrective action plan, which the Division Office enters into RADS to track the
status of each corrective action. The Directors of Field Services receive a monthly
status report on each Division Office.

FHWA'S NRT PLANNING AND INITIAL IMPLEMENTATION
EFFORTS WERE GENERALLY SOUND
Within 3 months of ARRA's passage FHWA had taken the necessary steps to
implement the NRTs. Specifically, FHWA:

• hired core team members with significant highway experience and positioned
  the NRTs within FHWA to provide effective communication with Division
  Offices and senior FHWA management;
• established an adequate budget;
• developed a charter outlining goals, objectives, roles, and procedures;
• developed a risk-based methodology to schedule reviews; and
• developed review guides and checklists for the six key risk areas that focus on
  key vulnerabilities.
We found the review guides to be comprehensive, and our fieldwork in California,
Georgia, Illinois, Indiana, Kansas, and Texas indicated that the NRTs conducted
their reviews in a thorough and consistent manner and adhered to the standard
checklists. As a result, the information collected across the states was comparable
and lent itself to national-level analyses.

FHWA HAD NOT TAKEN SUFFICIENT STEPS TO ENSURE
TIMELY AND EFFECTIVE IMPLEMENTATION OF CORRECTIVE
ACTION PLANS
FHWA Division Offices are working with states to implement corrective actions
addressing NRT findings, but several vulnerabilities could reduce the NRTs’
effectiveness unless they are addressed. Specifically, we identified NRT findings
that were not included in NRT review summary reports and instances where
Division Offices did not correctly report corrective action plan data. Without
complete and accurate data, FHWA cannot fully assess its ARRA risk
management efforts. We also identified corrective actions that will take an
                                                                                 5


extended period to implement, requiring vigilant FHWA oversight to ensure that
states carry out these actions. While the Directors of Field Services are well
positioned to take an active role in monitoring corrective actions and resolving
issues that could impact their implementation, FHWA had not defined their role.
We found that the Directors viewed their individual roles differently and provided
a different level of oversight at a time when they needed to sustain a proactive
focus on Division Offices' implementation of corrective actions.

Some Summary Reports Were Incomplete

Division Offices use summary reports to determine when states need to take
corrective actions. However, we identified a high number of observations with
valid recommendations that had not been included in NRT summary reports
completed by May 21, 2010. For example:
• the summary report for a review of preliminary plans, specifications, and
  estimates for a Florida project did not include the NRT’s observation that
  “…an unusual requirement for the low bidder to provide a work history of
  successful projects of the same kind required in this contract that have been
  completed in the state of Florida…may result in a preference [in the award
  decision] that is not permitted.” The report also failed to include NRT’s
  recommendation that the Division should work with the Florida department of
  transportation to ensure no provisions are included in Federal-aid contracts that
  inhibit competition.
• the summary report for a quality assurance review in California did not include
  the NRT’s observation that “…it was not clear project staff understood that
  material certifications were required for products incorporated into the work.”
  The NRT recommendation that “…all materials incorporated into the project
  need to meet the material requirements, including certifications for materials
  not being tested” was also missing from the summary report.
According to FHWA, NRTs may roll similar observations into one
observation/recommendation to avoid duplication.             In other cases,
recommendations were not included in summary reports because states addressed
them during the review. Based on our analysis, FHWA did not include over 100
observations with valid recommendations—about 12 percent of all observations
with recommendations. In addition, the NRTs did not include information in
RADS on how states addressed these issues—providing less assurance that they
implemented corrective actions. FHWA noted that all observations were included
in individual project reports, which are available to the Division Offices.
However, the individual project reports typically were not provided to Division
Offices and FHWA senior management at closeout briefings, thus diminishing the
potential urgency of an observation and the need to address recommendations.
                                                                                6


Including all observations in the summary reports would help FHWA leadership
understand the full scope of NRT findings.

Division Offices Did Not Always Record Complete and Accurate
Action Plans

Since January 2010, Division Offices have been required to enter complete
corrective action plans in RADS within 4 weeks of the start of an NRT review and
update them on a monthly basis. However, of the 637 observations requiring
actions in the NRT summary reports that we reviewed as of May 2010, nearly
107 observations (about 17 percent) had no target action date recorded, and over
60 (about 9 percent) had no status recorded. For example, there were no action
plan elements recorded for an observation from a March 2010 District of
Columbia review that addressed weaknesses in the District's process for managing
contractors' test samples. The absence of complete reporting diminishes FHWA's
ability to measure the effectiveness of the NRT oversight approach and ensure that
states take timely corrective action.

We also identified instances where Division Offices changed target action dates in
RADS because states delayed corrective actions, instead of reporting them as
behind schedule. As a result, the number of actions behind schedule may be
higher than RADS indicates. These data vulnerabilities could impact FHWA's
ability to oversee the status of corrective actions and inhibit FHWA's efforts to
measure the effectiveness of the NRT oversight approach and ensure timely
corrective action.

Since we completed our audit, FHWA officials informed us that they have updated
RADS to address some of these concerns. For example, the new version of RADS
prevents Division Offices from changing the initial target action date once it is
entered. FHWA added a new data field to allow a Division Office to enter a
revised target action date, but RADS will capture the initial target date also.
FHWA has also advised the NRTs to include all observations with
recommendations in the summary reports. These updates to RADS and the new
guidance could provide FHWA management with a more transparent view of the
status of corrective actions and increase the effectiveness of the NRT oversight
approach overall. However, to ensure complete reporting, FHWA should require
the NRTs to include all observations with recommendations in the summary
reports, not just advise them to do so.
                                                                                  7


Lack of Clear Roles Could Hinder FHWA's Efforts To Address
Identified Problems

The Directors of Field Services are key to the ultimate success of the NRT
approach because they are responsible for monitoring Division Offices' oversight,
including ARRA-funded projects, and report directly to FHWA Headquarters.
However, the NRT charter is silent on the role that Directors of Field Services
should play in ensuring corrective actions are appropriate, implemented in a timely
manner, and address all findings. Establishing clear roles would not only benefit
ARRA implementation, but could also lead to lasting improvements in states'
management of the Federal-aid highway program.

FHWA provides action plan status reports to the Directors of Field Services, but
our interviews with the Directors revealed that they viewed their roles differently.
For example, one Director reviewed each action plan to determine whether the
state is operating in compliance with Federal requirements, discussed any
significant problems with the appropriate Division Office Administrator, and
monitored the action plan status to ensure timely closure. In contrast, another
Director stated that the Division Offices are responsible for ensuring that action
plans address NRT findings and are closed promptly. That Director's oversight
was essentially limited to reviewing the action status reports.

Thorough oversight by the Directors of Field Services could increase the
likelihood that states will implement effective management improvements. In
particular, Division Offices indicated that some problems identified by NRTs may
take a year or longer to address because corrective actions include changing state
business practices. In fact, our review of NRT data identified 27 corrective
actions targeted for completion in fiscal year 2011 and 1 targeted for completion
in fiscal year 2012. FHWA will need to provide sustained oversight of Division
Offices to ensure states implement long-term corrective actions.           Active
involvement by the Directors of Field Services is critical to ensuring that the
Division Offices are working with the states to implement corrective actions, as
required.

INSUFFICIENT DATA AND RADS LIMITATIONS IMPEDED FHWA
EFFORTS TO ANALYZE NRT RESULTS AND IDENTIFY
NATIONAL TRENDS AND EMERGING RISKS
Under the NRT charter, FHWA is required to analyze NRT results to identify
national trends and emergent risks, and assess the effectiveness of ARRA risk
                                                                                                                     8


response strategies. 5 As ARRA activity has increased in 2010, these analyses will
be critical to helping FHWA identify ARRA risks and modify ineffective
mitigation strategies. These analyses would also allow FHWA leadership to
identify needed improvements in the Federal-aid highway program beyond
ARRA. However, at the time of our audit, FHWA analysis of NRT data to date
was limited—due in large part to a lack of detailed data and RADS limitations.

Lack of Detailed Data Provided Limited Basis for Analysis

For each project reviewed, the NRT provides a “yes,” “no,” or “not applicable”
response to standard checklist items, with optional comments. We found that
more than 17,000 or nearly 35 percent of all responses across the six ARRA risk
areas we reviewed were answered “not applicable.” FHWA officials told us that a
“not applicable” response could mean that a question was not applicable to a
project or that the NRT did not obtain an answer, because the system default 6 was
set to “not applicable." Further, only about 27 percent of the “not applicable”
responses included explanatory comments. For example, of the 279 responses for
a specific contract administration question on the checklist, 18 were marked “not
applicable,” and only one “not applicable” response had an explanatory comment.
We also found that “yes” or “no” responses may indicate noncompliance with
Federal requirements, but again NRTs were not required to add explanatory
comments.

According to FHWA, it has updated RADS to eliminate the “not applicable”
default. The NRTs will be required to select either “yes,” “no,” or “not
applicable.” If the NRT does not select a response, RADS will reflect that the
question was not answered. While this change would identify non-responses, the
extensive use of “not applicable” as a response could indicate a need for FHWA to
reevaluate NRT checklists, including determining whether modifying the
questions might produce answers that are more definitive. FHWA may consider
replacing the not applicable response with more definitive fields in RADS, such as
“does not apply” and “could not determine,” along with requiring teams to use
comment fields explaining their choices. Mandating comments in these instances
would enhance FHWA's ability to identify conditions that contributed to
noncompliance, which would provide information on oversight vulnerabilities that
is more useful to FHWA management. FHWA recently advised us that it will

5
    FHWA has proactively issued advisories based on issues identified by the NRTs; however, these advisories were
    developed largely on discussions with NRTs and review of NRT summary reports rather than from analysis of the
    data in RADS, as was planned.
6
    The standard checklist questions in RADS, which NRTs complete during their reviews, allowed the reviewer to
    select one of three answers: “yes,” “no,” or “not applicable.” According to FHWA, the answers were initially set to
    “not applicable,” but the NRTs change the answers to either yes or no or leave as “not applicable” after the NRT
    reviewer completed the questions. However, since the answers were pre-set to “not applicable,” it was not clear
    whether the NRT reviewer actually selected that answer, or whether the reviewer did not submit an answer or missed
    the question.
                                                                                                                  9


retain the “not applicable” selection, and has instructed the NRTs to use the
comment fields in RADS to explain their “not applicable” responses. The planned
upgrades to RADS could help provide additional details to clarify “not applicable”
responses.

RADS Did Not Facilitate Automated Analysis of NRT Data

In setting up RADS, FHWA did not incorporate features to facilitate quick
analysis of NRT data. At the time of our audit, FHWA was using a time-
consuming manual process to categorize NRT observations by program area.
FHWA officials stated that team members manually reviewed (about 1,000) NRT
observations and slotted them into 1 of 59 categories. Because the process was
subjective, similar observations may have been categorized across different risk
areas—potentially distorting or obscuring trends.

Since our review of RADS data, FHWA has revised the system to include a
drop-down menu to enable NRTs to categorize their findings as they conduct
reviews. As a result, the NRTs will rely less on text or memo fields to capture
observations or recommendations. FHWA has finalized standardized observation
categories that will allow NRTs to categorize their observations from a list of
“pre-loaded” observations in RADS related to FHWA program areas.

Adding other features—such as a key word field and a content analysis
function 7—could enhance RADS and FHWA's ability to analyze NRT data and
identify trends or recurring issues that warrant further action. A content analysis
function using relatively simple data searches of NRT text entries would enable
FHWA to identify potential vulnerabilities more easily. We conducted a content
analysis using “change order” to search the database and found 11 instances of
insufficient documentation to support change orders, 5 instances where the change
order effect on time was not considered, and 1 change order error. A content
analysis of “DBE program” uncovered seven instances of state DBE programs
requiring revision, five instances of noncompliant programs, and three instances of
programs under revision. Using “design,” we found eight instances where
designs/specifications were missing data, one instance where incorrect standards
were used, three staffing issues, one instance regarding the high cost of design,
and one potential conflict of interest. Increasing its data analysis capabilities
would allow FHWA leadership to identify ARRA risks and modify ineffective
mitigation strategies, as well as make needed improvements in the Federal-aid
highway program beyond ARRA.



7
    The Government Accountability Office defines content analysis as an approach to quantify qualitative information
    by systematically sorting and comparing items of information in order to summarize them.
                                                                                 10


FHWA officials acknowledged the utility of incorporating content analysis but
advised us that including the standardized observation categories in the revision to
RADS eliminated the need to incorporate a key word field, as the standardized
categories will accomplish much the same effect. We maintain, however, that
having a content analysis function would provide FHWA staff with even greater
capabilities to probe NRT data and look for trends.

CONCLUSION
In the months following ARRA's passage, FHWA took extraordinary steps to
stand up the NRTs quickly and roll out NRT reviews in the states. While these
reviews have the potential to mitigate risks posed by ARRA, FHWA has begun
further work needed to improve the NRT approach. In response to concerns raised
during our audit, FHWA has made improvements to RADS including adding
controls for target action dates, modifying system defaults to clarify NRT
responses and mandating the use of explanatory comments, and incorporating
standardized observation categories to allow the NRTs to categorize their findings
in real time. However, FHWA still needs to refine the NRTs to ensure their
success, including clarifying the role of the Directors of Field Services to enhance
Division Office oversight and state management practices of ARRA projects as
well as non-ARRA projects.           Accordingly, we are making a series of
recommendations to strengthen the NRT approach.

RECOMMENDATIONS
We recommend that FHWA:

1. Define the role of the Directors of Field Services to ensure proactive and
   consistent oversight of Division Offices' implementation of corrective action
   plans, including expectations for monitoring the plans and resolving issues that
   could impact their prompt and effective implementation.

2. Require the NRTs to include in the summary reports all observations that
   contain recommendations or necessitate some follow-up by a Division Office
   or state.

3. Improve national-level data analysis by:

   a. using additional methods, such as content analysis, to help identify national
      trends and new risks;

   b. modifying RADS to allow teams to more effectively classify observations
      as they conduct reviews, such as adding a drop-down menu;
                                                                                 11


   c. revising the not applicable response in RADS to distinguish between
      questions that do not apply to a project and those that the NRT could not
      determine; and

   d. requiring explanations for all RADS not applicable responses that indicate
      noncompliance with Federal requirements.


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FHWA a draft of this report for review and comment on October 20,
2010, and received its formal written comments on December 7, 2010. FHWA's
complete response is included as an appendix to this report. FHWA fully
concurred with our recommendations and provided documentation demonstrating
the actions it has taken. Accordingly, we consider all recommendations closed.

In response to the recommendations, FHWA formally defined the oversight role of
the DFS in monitoring the implementation of corrective action plans, and required
that the NRTs include all actionable observations in the summary reports they
provide to the Division Offices. FHWA has also added a drop-down menu of
standardized observations in RADS, related to FHWA program areas, that NRTs
will use to record their observations during reviews. The addition of drop-down
menus should enhance FHWA’s ability to later analyze NRT data and identify
national trends. FHWA has also revised its NRT protocols by requiring NRTs to
add explanatory comments to clarify whether a question applies to a project or
whether NRTs are unable to answer it, and when NRTs note instances of
noncompliance with Federal requirements. We believe that FHWA's actions
demonstrate a commitment to continuous improvement of the NRT approach,
including enhancing FHWA's ability to analyze NRT data.

ACTIONS REQUIRED
Based on actions FHWA has taken and our review of the documentation it
provided in response to our draft report, we consider all recommendations
resolved. No further actions are required, and we are issuing this final report with
all the recommendations closed.

We appreciate the courtesies and cooperation of FHWA representatives during this
audit. If you have any questions concerning this report, please call me at
(202) 366-5630 or Thomas Yatsco, Program Director, at (202) 366-1302.
                                                                                 12



EXHIBIT A. OBJECTIVE, SCOPE, AND METHODOLOGY
Our objective was to evaluate the effectiveness of the NRTs in conducting national
oversight and mitigating risks posed by the rapid infusion of ARRA dollars.
Specifically, we (1) assessed the planning and initial implementation of the NRTs
and examined ways to maximize the effectiveness of the NRTs before more
ARRA funds are expended, (2) evaluated whether FHWA has a process to ensure
that timely and effective actions are being taken to correct problems identified by
NRT reviews, and (3) determined whether FHWA has conducted national-level
analysis of data collected by the NRTs. We conducted this performance audit
from November 2009 through October 2010 in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective.

To obtain evidence on the planning and implementation of the NRTs, we
interviewed FHWA officials, including members of the Program Management
Improvement Team located at the FHWA Resource Center in Atlanta, Georgia;
the NRTs; the Director of Field Services-West; and the RADS administrators, and
obtained key documentation. Specifically, we reviewed the FHWA ARRA Risk
Management Plan, the NRT charter and review guides, the RADS system
requirements and user guides, review schedules, leadership reports, budgets, and
documentation supporting the qualifications of NRT staff. With the help of our
statistician, we reviewed the NRT scheduling methodology to determine whether
it was consistently employed and based on accepted procedures. We consulted
subject matter experts in the Office of Inspector General to evaluate NRT guides.

We accompanied an NRT team conducting a contract administration/quality
assurance review in Texas and observed the review process. We conducted a site
visit to the Illinois FHWA Division Office and the Illinois department of
transportation in January 2010 to get an understanding of how the NRT teams
operated during their reviews and the process used to develop and implement a
corrective action plan. We judgmentally selected Illinois because the NRTs had
conducted reviews in more risk areas in Illinois than any other state as of our
cutoff date of November 4, 2009. During the visit, we interviewed personnel at
the Division Office and the Illinois department of transportation.

We visited the FHWA Division Offices and state departments of transportation in
Georgia, Kansas, California, and Indiana to review their action plan processes. To
maximize our review of action plans, we identified states with the largest number
of recommendations that were completed or targeted for completion by


Exhibit A. Objecti ve, Scope, and Methodolog y
                                                                               13


May 1, 2010. We judgmentally selected four states with at least one state in each
of the Directors of Field Services regions. During these site visits, we held
discussions with the FHWA Division Office and the respective state department of
transportation, and obtained documentation to support the status of the corrective
actions.

We downloaded the NRT summary review reports from RADS for reviews
completed as of February 5, 2010, and entered selected data from those reports
into an Access database. We used the observations from these reviews to conduct
key word searches to group related observations and identify potential areas of
concern. We obtained the FHWA ARRA Project List as of May 21, 2010, from
the FHWA Recovery Act website, and obtained NRT data in RADS as of
May 21, 2010, from FHWA's Program Management Improvement Team. We
conducted queries to determine the scope of reviews completed as of May 21,
2010, and developed statistical data, including the numbers and types of reviews
performed and assessments made by the NRTs, the projects examined during the
NRT reviews, the observations and recommendations resulting from the reviews,
and NRT responses to checklist questions. We also determined the number of
action plans entered by the FHWA Division Offices for reviews completed as of
April 23, 2010, taking into consideration the 4-week time frame that FHWA
allows for the divisions to complete action plans in RADS. An OIG technology
specialist independently verified our analysis using the Statistical Package for
Social Science. Our analysis provided some assurance as to the consistency and
completeness of the NRT data, but we could not test the accuracy of the data
because the NRTs do not maintain documentation to support their findings.




Exhibit A. Objecti ve, Scope, and Methodolog y
                                                                     14



EXHIBIT B. MAJOR CONTRIBUTORS TO THIS REPORT


  Name                                 Title

  Thomas Yatsco                        Program Director

  Joan Becker                          Project Manager

  Donald Lango                         Senior Auditor

  Ryan Sanders                         Senior Analyst

  Farrin Tamaddon                      Analyst

  Scott Williams                       Analyst

  Petra Swartzlander                   Statistician

  William Savage                       Information Technology Specialist

  Harriet Lambert                      Writer-Editor




Exhibit B. Major Contributors to This Report
                                                                                            15



APPENDIX. AGENCY COMMENTS




                                                                  Memorandum

Subject:   INFORMATION: Federal Highway Administration (FHWA)
           Response to the Office of Inspector General (OIG)                 Date: December 3, 2010
           Draft Report on FHWA’s National Review Team
           Project No. 10U3004M000
                                                                             Reply to
                                                                             Attn. of:   DFS-PMIT
From:      Victor M. Mendez
           Administrator

To:        Calvin L. Scovel III
           Inspector General (JA-1)


           The Federal Highway Administration’s successful implementation of the
           American Recovery and Reinvestment Act of 2009 (Recovery Act) is a direct
           result of the Agency’s comprehensive, risk-based management approach used to
           oversee the $27.5 billion provided by the Act. Recognizing the inherent
           management challenges in meeting new Recovery Act requirements, FHWA
           established a multi-disciplinary team of experts, the National Review Team
           (NRT), to lead FHWA’s Recovery Act risk management efforts in a corporate and
           strategic manner. The NRT has conducted 152 site visits across the Nation –
           almost doubling our goal of 80 site visits – and has reviewed more than 1,000
           projects to date. By conducting reviews of quality assurance, financial controls,
           data quality and integrity, and locally administered projects, among other areas,
           the NRT is central to FHWA’s stewardship and oversight. It is also a key to
           ensuring these Recovery Act projects, which put thousands of Americans back to
           work, are prudent highway infrastructure investments.




Appendix. Agency Comments
                                                                                     16



    The NRT identifies and has taken swift action to address risks related to the use of
    Recovery Act highway funds. For example, the NRT issued four
    Recovery Act Advisories to alert FHWA leadership of issues that require
    immediate attention. FHWA has met all of the Recovery Act’s requirements and
    milestones. We are committed to carefully monitoring all Recovery Act projects
    and will build upon the NRT’s work in ways that enhance FHWA’s efficiency,
    transparency, and accountability to the American public.

    We agree with the OIG’s findings that the NRT is conducting thorough and
    consistent reviews and have found additional opportunities to fine-tune the NRT’s
    review practices and procedures, as noted below in the responses to the draft
    report recommendations.

    Recommendation 1: “Define the role of the Directors of Field Services to ensure
    proactive and consistent oversight of Division Offices' implementation of
    corrective action plans, including expectations for monitoring the plans and
    resolving issues that could impact their prompt and effective implementation.”

    Response: Concur. The Directors of Field Services (DFS) serve as the direct
    line authority to the Division Administrator in each State. Therefore, the current
    procedure for monitoring the implementation of NRT recommendations includes
    monthly status reports to each DFS describing the Division Offices’ progress.
    The FHWA recognized the need to formally define a standard set of expectations
    for the DFS monitoring role. The DFSs outlined and have now executed a new
    standard approach that will be used by all three DFSs to ensure NRT
    recommendation implementation is consistently and proactively monitored. This
    approach was documented in a memorandum approved by the FHWA Executive
    Director. We consider this recommendation closed.

    Recommendation 2: “Require the NRTs to include in the summary reports all
    observations that contain recommendations or necessitate some follow-up by a
    Division Office or state.”

    Response: Concur. When FHWA established the NRT teams in June 2009, we
    directed them to include all substantial observations and recommendations in a
    final report to be presented to the Division Office at the conclusion of the review.
    We expected that some observations made during the course of the review might
    not be deemed substantial by the team when writing the final report and in the
    context of the entire review experience. To account for the fact that some
    observations might not be presented to the Division Office in the final report, we
    made all the observations, comments, and checklist answers available in total to
    each Division Office through FHWA’s Recovery Act Database System (RADS).
    However, to ensure that Division Offices are aware of all review information, we
    concur with this recommendation. On November 2, 2010, the Program
    Management Improvement (PMI) Team Leader, who is responsible for the overall


Appendix. Agency Comments
                                                                                      17


    management of the NRT teams, issued a new set of protocols requiring the NRT
    team members to include all observations with a corresponding recommendation
    in the final report issued to the Division Office. In addition, a reminder was sent
    to all Division Office Recovery Act contacts reiterating that the full set of review
    information is available through the RADS review database system. These
    actions are complete and we consider this recommendation closed.

    Recommendation 3:
    a. “Improve national-level data analysis by using additional methods, such as
       content analysis, to help identify national trends and new risks.”

       Response: Concur. The PMI Team has been conducting ongoing tracking
       and analysis of the NRT information. This team produces several monthly
       status reports regarding review progress, observations, recommendations, and
       action tracking that are submitted to FHWA leadership. In addition, we issued
       four NRT Recovery Act Advisories regarding national trends identified by the
       NRT teams. The PMI Team also identified several improvements that were
       needed to the RADS review database system, and these improvements have
       been implemented. With these new capabilities and in anticipation of
       reaching upcoming milestones regarding the completion of reviews in each
       State for most risk areas, the PMI Team recently hired an additional
       program/data analyst to focus on the NRT effort. The PMI Team is now
       positioned to use additional methods, such as content analysis, to evaluate
       data and identify trends. We consider this recommendation closed.

    b. “Improve national-level data analysis by modifying RADS to allow teams to
       more effectively classify observations as they conduct reviews, such as adding
       a drop down menu.”

       Response: Concur. One of the improvements to the RADS review database
       system that was noted in our previous response included the addition of drop
       down menus to categorize and classify each observation. We consider this
       recommendation closed.

    c. “Improve national-level data analysis by revising the ‘not applicable’ response
       in RADS to distinguish between questions that do not apply to a project and
       those that the NRT could not determine.”

       Response: Concur. One of the improvements to the RADS review database
       system noted in our previous response was eliminating the “not applicable”
       default answer. To further address this recommendation, on November 2,
       2010, the PMI Team Leader, who is responsible for the overall management
       of the NRT teams, issued a new set of protocols requiring the NRT team
       members to provide a comment in the comment box for each “not applicable”
       response to clarify whether the question does not apply to the project or




Appendix. Agency Comments
                                                                                 18


       whether the NRT could not determine an answer. We consider this
       recommendation closed.

    d. “Improve national-level data analysis by requiring explanations for all RADS
       not applicable responses that indicate noncompliance with Federal
       requirements.”

       Response: Concur. One of the improvements to the RADS review database
       system that was noted in our previous response included eliminating the “not
       applicable” default answer. To further address this recommendation, as part
       of the new protocols issued by the PMI Team Leader on November 2, 2010,
       NRT team members are now required to provide a comment in the comment
       box for each “Y-N-NA” response that is related to non-compliance with
       Federal requirements. We consider this recommendation closed.

    The FHWA appreciates the OIG’s efforts and open discourse throughout the audit
    to further strengthen the FHWA’s National Review Team. If you have any
    questions or comments regarding this response, please contact Mr. Michael Graf,
    Program Management Improvement Team Leader, at 404-562-3578.




Appendix. Agency Comments
